U.S. Department    of the Interior
Office of Inspector General




             AUDIT REPORT


       INTERNAL CONTROLS OVER
       THE ACCOUNTING SYSTEM,
   FINANCIAL MANAGEMENT BRANCH,
    MINERALS MANAGEMENT SERVICE

              REPORT NO.OO-I-333
                 MARCH2000
U.S. Department of the Interior                            Office of the Inspector General



                              EXECUTIVE         SUMMARY

                    Internal Controls Over the Accounting System,
            Financial Management Branch, Minerals Management Service
                                 Report No. 00-I-333
                                      March 2000


BACKGROUND

The financial activities ofthe Minerals Management Service (MMS) are managed by MMS’s
Financial Management Branch, located in Hemdon, Virginia. In fiscal year 1998, the Branch
accounted for appropriated funds of approximately $208 million. The accounting system
used by MMS is the Advanced Budget/Accounting Control and Information System
(ABACIS), which provides for recording, processing. and transmitting MMS’s financial
transactions; supporting the financial planning and budgeting activities; and preparing
MMS’s financial statements. The ABACIS also pro\?des the accounting details for the
Department of the Interior-established Interior Franchise Fund.          The Government
Management Reform Act (Title 3 1, United States Code) established the Franchise Fund Pilot
Program. Pursuant to the Act and as part of the pilot program, the Department established
the Fund to offer services such as personnel management, payroll, procurement, and
automated data processing for customers outside the Department. Office of Management and
Budget guidance requires Federal agencies to design and implement effective controls oj.er
financial accounting and over program and administrative operations.

RESULTS IN BRIEF

Overall, MMS’s Financial Management Branch did not have financial data that were
accurate, complete, and timely for fiscal year 1998. Office of blanagement and Budget
Bulletin No. 98-08, “Audit Requirements for Federal Financial Statements,” states that
internal controls are designed to provide reasonable assurance that transactions are properly
recorded? processed, and summarized to permit the preparation of financial statements in
accordance with Federal accounting standards. Office of Management and Budget Circular
No. A-l 23, “Management Accountability and Control,” states that managers are responsible
for the quality and timeliness of program performance and for ensuring that programs are
managed with integrity and in compliance with applicable laws. However, control
deficiencies occurred because MMS personnel did not follow established internal controls.
such as performing account reconciliations and providing management oversight of the
financial management accounting processes, and MbIS did not establish adequate internal
controls to ensure that transactions were properly classified during the conversion to the new
standard general ledger required by the Federal Financial Management Improvement Act of
1996. In addition, MMS did not have sufficient internal control procedures to ensure proper
accounting of the Interior Franchise Fund. As a result, MMS’s financial statements were
adversely affected; for example, it was necessary for blMS to make adjusting journal entries
totaling $24.5 million to correct the differences between the general ledger cash balance and
the Department of the Treasury cash balance. Also, funds in the Interior Franchise Fund
were commingled with its Fedsim fund (a nonappropriated fund) to supplement the Interior
Franchise Fund.

RECOMMENDATIONS

We recommended that the Director of MMS establish an internal control structure that
provides assurance that assets are safeguarded; transactions are processed in accordance with
applicable laws and regulations and are recorded, reconciled, processed, and summarized to
permit the preparation of reliable financial statements; and accountability for assets is
maintained.     We also recommended that a cost accounting system be developed to
accumulate separately all expenses and revenues associated with the Interior Franchise Fund
and that the accrual accounting method of transaction reporting be applied to the Fund so that
it is in accordance with generally accepted accounting standards.

AUDITEE     COMMENTS         AND OIG EVALUATION

MMS concurred with the report’s three recommendations.       Based on the response and
subsequent information, we considered hi-0 recommendations resolved and implemented and
one recommendation resolved but not implemented.




                                              2
                                                                             E-IN-MMS-009-98



              United States Department of the Interior
                              OFFICE OF INSPECTOR GENERAL
                                     Washington. DC   20240




                                   AUDIT REPORT

Memorandum

To:        Assistant Secretary   for Land and Minerals Management

From:      Roger La Rouche
           Acting Assistant

Subject:   Audit Report on Internal Controls Over the Accounting System, Financial
           Management Branch, Minerals Management Service (NO. 00-1-333)


                                   INTRODUCTION

This report presents the results of our review of the internal controls over the financial data
managed by the Minerals Management Service’s (MMS) Financial Management Branch. &‘e
performed this review as part of our audit of MMS’s financial statements for fiscal years
1998 and 1997. During fiscal year 1998, we began a review of MMS’s financial data;
however, we were unable to complete the audit because the financial data were not accurate.
were incomplete, and were not timely.


BACKGROUND

The financial activities of MMS are managed by the Service’s Financial Management
Branch, located in Hemdon, Virginia.          In fiscal year 1998, the Branch accounted for
appropriated funds of approximately      $208 million. The accounting system used by 1f\lS
is the Advanced Budget/Accounting        Control and Information System (ABACIS). which
provides for recording,      processing,   and transmitting    MMS’s financial transactions;
supporting the financial planning and budgeting activities; and preparing MMS’s financial
statements. Office of Management and Budget Circular No. A- 127, “Financial Management
Systems,” states that appropriate internal controls “shall be applied to all system inputs,
processing, and outputs” and that the financial management system “shall include a system
of internal controls that ensure resource use is consistent with laws. regulations, and policies;
resources are safeguarded against waste, loss, and misuse; and reliable data are obtained.
maintained, and disclosed in reports.”     The Chief of Accounting Operations and the Chief
of Accounting      systems are responsible     for ensuring that reliable data are obtained.
maintained, and disclosed in MMS’s reports.



                                                3
The ABACIS also provides accounting details for the Interior Franchise Fund.            The
Government    Management    Reform Act (Title 31, United States Code) established the
Franchise Fund Pilot Program. Pursuant to the Act and as part of the pilot program, the
Department of the Interior established the Interior Franchise Fund to offer services such as
personnel management, payroll, procurement, and automated data processing for customers
outside the Department.


SCOPE OF AUDIT

During our review of MMS’s financial statements for fiscal year 1998, we reviewed the
internal controls in place for that fiscal year. During fiscal year 1998, MMS instituted
internal controls under the new standard general ledger that were the subject of this review.
MMS is responsible for establishing and maintaining an internal control structure which
provides assurance that transactions are properly recorded and processed, assets are
safeguarded, and financial transactions are executed in accordance with applicable laws and
regulations. We evaluated MMS’s internal controls over the ABACIS general ledger and the
ability of the Chief of Accounting Operations and the Chief of Accounting Systems to
provide accurate and reliable financial data. We also reviewed the internal controls over
accounts payable, the reconciliation process, and the Interior Franchise Fund.

Our audit was conducted in accordance with the “Go\.emment Auditing Standards.” issued
by the Comptroller General of the United States, We found that significant internal control
weaknesses existed because procedures were either not followed or not established.     As a
result, MMS’s internal controls were not sufficient to provide reasonable assurance that the
amounts reported in the general ledger were accurate and reliable.


PRIOR AUDIT COVERAGE

During the past 6 years, the Office of Inspector General has issued six audit reports on
MMS’s financial statements as follows: for fiscal years 1996 and 1997, Report No. 98-I-382,
issued in March 1998; for fiscal years 1995 and 1996, Report No. 97-I-445, issued in
February1997; for fiscal years 1994 and 1995, Report No. 96-I-63 1, issued in March 1996;
for fiscal years 1993 and 1994, Report No. 95-I-405, issued in January 1995; for fiscal years
1993 and 1992, Report No. 94-I-715, issued in June 1994; and for fiscal year1991. Report
No. 93-I-369 (combined statement of financial position only), issued in December 1992. For
all six audits, we issued unqualified opinions that the financial statements were fairly
presented.     The audit reports also stated that MMS’s internal control structure met
established internal control objectives and that it was in compliance in all material respects
with applicable laws and regulations. Internal controls Lvere applicable for these fiscal years;
however, the internal control environment during fiscal year 1998, which is the subject of
our review, changed. Specifically, the new standard general ledger was implemented, and
the accounting activity for the General Services Administration and for the Interior Franchise
Fund became fully operational.     Management of MMS is responsible for establishing and
maintaining an internal control structure that provides reasonable assurance that transactions
are properly recorded, processed, and summarized.       Because of inherent limitations in any


                                               4
internal control structure, errors or fraud may occur and not be detected. Also, projections
of the internal controls over financial reporting to future periods are subject to the risk that
the internal controls may become inadequate because of changes in conditions or that the
degree of compliance with the policies or procedures may deteriorate.


                               RESULTS OF AUDIT

MMS’s Financial Management           Branch did not have financial data that were accurate,
complete, and timely for fiscal year 1998. Office of Management and Budget Bulletin
No. 98-08, “Audit Requirements         for Federal Financial Statements,” states that internal
controls are designed to provide reasonable assurance that transactions are properly recorded,
processed, and summarized to permit the preparation of financial statements in accordance
with Federal accounting standards. Office of Management and Budget Circular No. A-123,
“Management Accountability        and Control,” states that managers are responsible for the
quality and timeliness of program performance and for ensuring that programs are managed
with integrity and in compliance        with applicable laws. However, control deficiencies
occurred because MMS personnel did not follow established internal controls. such as
performing account reconciliations       and providing management oversight of the financial
management accounting processes, and MMS did not establish adequate internal controls to
ensure that transactions were properly classified during the conversion to the new standard
general ledger. In addition, MMS did not have sufficient internal control procedures to
ensure proper accounting of the Interior Franchise Fund. As a result, MMS’s financial
statements were adversely       affected, and funds in the Interior Franchise Fund were
commingled with MMS funds.

Account Reviews and Reconciliations

MMS did not review or reconcile financial data to ensure that accounting transactions were
recorded and reported accurately during fiscal year 1998. In addition, the values in the
property system did not support the general ledger balance. Office of Management and
Budget Circular A-34, “Instruction on Budget Execution.” states that each agency “shall
maintain systems of accounting and internal controls that provide reasonable assurance that
transactions are properly recorded and accounted for to permit the preparation of reliable
financial reports.” However, the Chief of Financial hlanagsment Branch said that they did
not ha\-e sufficient time to perform the reviews and reconciliations.

    General Ledger. During our interim testing of the accounts payable line item in the
financial statements, we determined that the amount for each accounts payable transaction
was not recorded in the subsidiary ledger. Therefore, we could not verify the general ledger
account balance with the amounts in the detailed subsidiary ledger. The Chief of Accounting
Operations stated that the Financial Management Branch did not review or reconcile the
general and subsidiary ledgers on a monthly basis during fiscal year 1998 because
management did not assign responsibility       for these duties. According to the Chief of
Accounting Operations and the Chief of Accounting Systems, they were not aware that the
ledgers were not balanced monthly until we reviewed the accounts payable line item in

                                                5
August 1998. However, the accounting system generated a monthly general ledger report,                                    ’
which indicated that the general ledger and the subsidiary ledger did not balance. We iound
that the ChiefofAccounting    Operations disposed of the monthly general ledger reports. The
Chief, however,    said that he was not aware that he was responsible for reconciling these
reports. After we found that the general ledger did not balance, the Chief of Accounting
Systems researched the general ledger accounts and determined that data were not converted
properly during the conversion to the new standard general ledger in October 1997. The
Chief of Accounting Systems made adjustments to the ABACIS in August 1998 for 595
accounts payable transactions, which totaled approximately    $10.9 million.

 If the general ledger had been reviewed and reconciled monthly, the Chief of Accounting
 Operations and the Chief of Accounting Systems would have found that their accounting
 information   was recorded improperly in the subsidiary ledger. The accounting system
 indicates whether a line item should have a debit or a credit balance. For example, the
 accounts payable line item is identified as having a credit balance because it represents the
amount the organization owes others (a liability), while the accounts receivable line item is
 identified as having a debit balance because it represents the amount the organization should
receive from others (an asset). Thus, if the accounts payable has a debit balance, it Kould
indicate an unnatural balance. During our review of the September 30, 1998, preclosing
general ledger, we determined that 25 of the 42 general ledger accounts had unnatural
balances.    Of the 25 unnatural general ledger account balances, 14 balances pertained to
budgetary accounts,’ such as reimbursements       and other earned income, and to undelivered
orders, and 11 balances were proprietary accounts,’ such as fund balance with Treasury,
accounts payable, and unexpended appropriations.        The Chief of the Financial Management
Branch, the Chief of Accounting Operations, and the Chief of Accounting Systems said that
they were unaware of the unnatural balances until we brought the matter to their attention.
We noted during our testing that one of the reasons for the unnatural balances was that
accounting activities for fiscal year 1998 were not closed properly, resulting in expenses
being charged to the improper fiscal year and fund in the ABACIS.

     Cash. MMS did not perform monthly cash reconciliations     for any of its 13 funds during
fiscal year 1998. The Treasury Financial Manual, Part 2, Chapter 3300, Section 3330,
requires cash to be reconciled on a monthly basis and reported to the Department of the
Treasury on Standard Form 224, “Statement of Transactions.”      Any differences in the cash
balances between MMS’s general ledger and the Department of the Treasury’s balances are
to be reported in the Statement of Differences section of Form 224. The Chief of the Branch
said that the Branch was aware that cash needed to be reconciled monthly but that it did not
have sufficient time to perform this task during fiscal year 1998. Instead, an MMS




‘Budgetary accounts are used for fund control.         Such accounts maintain the appropriation, apportionnxnr.
allotment. obligation,  and other budget-related        accounts and ensure that the agency complies with the
provisions of the AntideficIency Act.

‘Proprietary   accounts   track, record, and state the financial   condition   of the entity and provide profit or loss
information.


                                                           6
accountant said that the Branch assumed that the Treasury balances were correct and adjusted
the general ledger to these amounts. For example, if the Treasury records reported a cash
balance lower than the cash balance in MMS’s general ledger, an adjusting journal entry was
made to reduce MMS’s amount by crediting the cash account and debiting the accounts
payable account. The Chief of Accounting Operations said that he was not aware that the
adjustments were incorrect, and the Chief of the Branch stated that he was not aware that the
adjustments were made only to the two accounts instead of all of the differences reconciled.
In October 1998, MMS began to determine, by fiscal year and fund, the differences between
the general ledger cash balance and the Department       of the Treasury cash balance.     In
November 1998, MMS made adjusting journal entries totaling $24.5 million to correct the
differences.

A cash reconciliation   should be performed on a transaction basis so that it provides the
information needed to adjust specific transactions in the subsidiary ledger. For example,
Schedule No. 8H9134, paid in September 1998, was posted to the subsidiary ledger in the
amount of $634.72, while the Department of the Treasury recorded the schedule in the
amount of $1,42 1.92. The differences could have occurred for reasons such as posting errors
and timing differences.   Thus, a transaction-level analysis had to be performed to determine
the correct amount and the reason for the differences.    A determination then could be made
as to whether MMS’s subsidiary ledger or Department of the Treasun. records needed to be
adjusted. As a result of not performing proper cash reconciliations,     inaccurate information
on the Form 224 was submitted to the Department of the Treasury, and the balances for the
cash account and the accounts payable account in the general ledger were incorrect.            In
addition, when cash reconciliations         are not performed,   the potential     exists for an
antideficiency situation or for funds to be misappropriated.

     Year-End Closeout. We found that fiscal year 1998 transactions were included in the
fiscal year 1999 subsidiary account balances in the ABACIS.          We randomly selected
40 fiscal year 1999 transactions that were posted on November 6, 1998, and found that
6 transactions (1.5 percent) were fiscal year 1998 transactions. MMS prepared adequate year-
end procedures; however, the accounting staff did not follow these procedures. As a result,
fiscal year 1998 transactions were posted incorrectly to the fiscal year 1999 accounts.

We also statistically     tested 327 fiscal year 1998 expenses and determined         that the
infomlation recorded in the ABACIS contained either the incorrect appropriation fund code
or the incorrect fiscal year. For example, on February 3, 1998, expenses for aircraft services
totaling $33,140 were incurred using l-year money (98MM fund); however: the purchase
order indicated that no-year money (98MD fund) was to be used. We also found that a fiscal
year 1996 oil spill research account (96M0 fund) had charges for an environmental test tank
totaling $276,782 for which the purchase order indicated that fiscal year 1992 1-year money
(92MM fund) should have been used. A projection of the sample results to the total expense
population resulted in the most likely error of misclassified financial data in the ABACIS to
be $6.6 million. In addition, while auditing the 327 operating expense transactions, we
found the following discrepancies:



                                                7
    - One hundred twenty five invoices were not date stamped, resulting in a projection of
$82 million of invoices that could not be reviewed for compliance with the Prompt Payment
Act. The Prompt Payment Act requires that a payment be made within at least a 30-day time
frame. Therefore, if an invoice is not date stamped when it is received, the payment due date
cannot be tracked, and the invoice may not be paid timely.

    - Fifteen account numbers in the ABACUS did not agree with the account numbers on the
purchase order, resulting in a projection of as much as $9.9 million that may have been
charged to the incorrect fund. For example, a state and Indian compliance review was
charged to a no-year fund (98MD fund) in the ABACIS but should have been charged to the
annual appropriation (98MM fund).

     - Nine paid invoices were not approved. Based on our sample results, we projected
unapproved paid invoices of $5.9 million. When payments are not reviewed, the potential
exists for funds to be misappropriated.

We believe that the existence of these discrepancies         increases the potential for an
antideficient situation because available f?mds may be depleted before all valid expenses are
identified and paid or because funds may be misappropriated      if controls are not followed.

     Conversion. During October 1997, MMS converted to the new standard general ledger.
as required by the Federal Financial Management Improvement Act of 1996. However, the
conversion did not properly include all of the general ledger account balances. Consequently,
MMS created a balancing account (Account 0000) that had a $69 million balance as of
September 30, 1998, to capture the remaining activities. Because MMS did not reconcile the
$69 million to identify the adjustments needed in the ABACIS records, we found, in August
1998, that the fiscal year 1997 ending balances audited n-ere not equal to the fiscal year 1998
opening balances. This occurred because MMS did not compare the ending balances with
the opening balances after the conversion to the new standard general ledger. The Chief of
the Financial Management Branch, the Chief of Accounting Operations, and the Chief of
Accounting Systems stated that they were not aware of the differences until we informed
them of the discrepancies. After fiscal year 1998, MMS made 12 adjustments, totaling $91.3
million, to the fiscal year 1998 beginning balances so that they were the same as the audited
ending balances for fiscal year 1997.

    Capitalized Equipment.      MMS did not have sufficient internal control procedures to
ensure that the general ledger control balance for Property, Plant and Equipment was
accurately stated and supported by detailed subsidiary information.     The official property
records are maintained in MMS’s Property Management System, which is not integrated
with the ABACIS. During our testing of the Property, Plant and Equipment line item in the
financial statements,  we found that MMS did not periodically reconcile the property
management records to MMS’s general ledger control account. Office of Management and
Budget Circular A-127 states that each agency should establish and maintain a single
integrated financial management system that requires reconciliations between subsystems
to ensure the accuracy of the data. During the audit, we identified 11 capitalized equipment


                                               8
property items, totaling $182,206, that were in the Property Management System but that
were not in the subsidiary ledger. Overall, there was a $3.8 million difference between the
two systems for capitalized equipment. To ensure that the accounting system balance is the
same as the Property Management System balance for capitalized equipment, the general
ledger would have to be adjusted by $3.8 million and individual property items updated in
the subsidiary ledger.

Inadequate Procedures

MMS did not have adequate procedures to ensure that accounting transactions were recorded
and reported properly during fiscal year 1998, as described in the paragraphs that follow.

    Federal    or Public Transactions.    MMS did not have adequate internal controls to
ensure that transactions were properly classified as Federal (government) or Public
(nongovernment) in the general ledger accounts. Office of Management and Budget
Bulletin 97-O1, “Form and Content of Agency Financial Statements,” requires liabilities to
be separated between Federal and Public. Because the MMS did not develop and implement
procedures which ensured that accounts were properly defined as either Federal or Public,
accounting employees judgmentally selected the designation when posting each transaction.
We reviewed 327 operating expense transactions and found 22 transactions, totaling
approximately $1.2 million, that were classified as Federal (government) but that should
have been classified as Public (nongovernment). For example, 15 purchase orders relating
to six states (California, Colorado, Montana, Oklahoma, Utah, and Wyoming) were entered
as Federal; however, they should have been entered as Public.

    Interior   Franchise   Fund.MMS did not have sufficient internal control procedures to
ensure the proper accounting of the Department of the Interior’s Franchise Fund.
Specifically, MMS did not (1) develop a cost accounting system to determine whether the
pricing structure was adequate to recover full costs; (2) implement accrual accounting
procedures to record expenses incurred or revenues received in accordance with accounting
standards; and (3) provide oversight over the Fund by establishing written accounting
procedures or reviewing accounting data. As a result of these deficiencies: MMS used its
Fedsim fund (a nonappropriated fund) to supplement the Interior Franchise Fund.

MMS did not develop a cost accounting system to facilitate compliance with the Department
of the Interior and Related Agencies Appropriation Act of 1997 (Public Law 104-208),
which requires that established pricing rates recover all expenses of operations. In addition,
the Government Management Reform Act (Public Law 103-3.56) and the Department of the
Interior and Related Agencies Appropriation Act of 1997 (Public Law 104-208) require that
the Interior Franchise Fund recover the full costs associated with the products and services
provided and an amount necessary to maintain operating resen-es. The Acts also allow the
Interior Franchise Fund to retain up to 4 percent of gross revenues for the acquisition of
capital equipment and for the improvement and implementation of Departmental financial
management, automated data processing, and other support systems.




                                              9
MMS’s Chief of Financial Management Branch stated that MMS did not establish a cost
accounting system because MMS personnel believed that their AElACIS could accommodate
the additional activities for the Interior Franchise Fund transactions. However, the Interior
Franchise Fund did not account for all the expenses and revenues such as overhead costs.
Instead, the overhead costs were allocated to a revolving fund established to account for
procurement activity conducted with the General Services Administration. For example,
overhead costs of approximately $42,000 for the Cooperative Administrative Support Unit
were charged to the General Services Administration Fund. We informed MMS that
overhead expenses associated with the Interior Franchise Fund had been commingled with
other funds in the ABACIS. MMS’s Financial System Team Leader stated that the overhead
charges were posted to the revolving fund because the Interior Franchise Fund account did
not have sufficient funds to cover these expenses. Until h&IS properly accounts for the
overhead charges, revenues from Department of the Interior activities may be supplementing
MMS’s appropriation, or conversely, MMS’s appropriation may be supplementing
non-Department of the Interior transactions.

MMS did not implement accrual accounting procedures to record expenses and revenues for
the Interior Franchise Fund. Accounting standards require expenses to be recognized when
goods and services are received and revenues to be recognized when earned. However,
MMS rccordcd revenues before all of the goods or services were received. This resulted in
MMS’s collecting at least $2.2 million from the Interior Franchise Fund during fiscal
year1 998 that had not been earned.

MMS did not provide proper oversight over fiscal year 1998 accounting activities for the
Interior Franchise Fund. The Fund subcontracts with MMS for the billing and collection
functions and for delivering goods and services and with the U.S. Geological Survey for
financial accounting and reporting. The Interior Franchise Fund is reported as part of the
financial statements of the Office of the Secretary’s Departmental Offices. We determined
that the Fund’s subsidiary account balances were not supported by the accounting records
and that the subsidiary ledger was not reconciled to Interior Franchise Fund accounting
activities. These deficiencies occurred because accounting procedures for the Interior
Franchise Fund were not documented and monthly account reconciliations were not
performed. Specifically, MMS did not have written procedures for year-end closeouts of
expenses, and the informal procedures to close the books as of September 30,1998, were not
followed. For example, we found that the fiscal year 1998 Interior Franchise Fund
subsidiary ledger remained open for financial activities through November 1998. Because
the ledger was updated 2 months after the close of the fiscal year, fiscal year 1999
expenditures of approximately $1.6 million were recorded in the fiscal year 1998 subsidiary
ledger. In addition, we found that monthly billing documents were processed by MMS
without being reconciled to the source documents. MMS officials stated that they did not
have the time to reconcile the billing documents to the source documents because there was
only one staff member assigned to that function. During our testing, we attempted to
reconcile January billings with source documents; however, MMS was unable to provide the
necessary documentation    for us to perform the reconciliation.



                                             10
After the close of fiscal year 1998, MMS began its first reconciliation of Interior Franchise
Fund activities. The reconciled data were provided to the Office of the Secretary for
inclusion in the Departmental Offices financial statements for fiscal year 1998. We reviewed
the subsidiary ledgers and compared the data with the amounts in the Interior Franchise
Fund’s financial statements for fiscal year 1998. We identified $2.2 million in Advances
From Customers that should have been included in the Interior Franchise Fund but that was
recorded as Fund Balance with Treasury, which we believe indicates that the cash Leas
available to MMS. When we informed MMS and Office of the Secretary officials of the
error, they adjusted the financial statements to reflect the correct information. In addition,
year-end expenses of approximately $1.3 million and revenues of approximately $704,000
were not reported because year-end accruals3 were not recorded. The Chief of Financial
Management Branch agreed that the revenues should have been recognized when earned and
that expenses should have been recognized when the goods and services were received.
During our review, MMS officials began to develop accounting procedures to ensure that the
accrual accounting method is used in future accounting periods.

Recommendations

We recommend that the Director of MMS implement internal control procedures which
ensure that:

     1. An adequate internal control structure, including management oversight. is
established to provide reasonable assurance that assets are safeguarded; transactions are
processed in accordance with applicable laws and regulations; transactions are recorded,
reconciled, processed, and summarized to permit the preparation of reliable financial
statements; and accountability for assets is maintained. At a minimum, MMS should ensure
the following:

    - Responsibilities are assigned to specific individuals and officials are held accountable
for not complying with established internal controls.

    - Year-end closeout procedures are followed for general ledger activities and are
documented and followed for Interior Franchise Fund activities.

   - Accounting transactions are defined properly in the ABACIS as either Federal or
Public.

    2. A cost accounting system is developed which will accumulate separately all expenses
and revenues associated with the Interior Franchise Fund.

    3. The accrual accounting method of transaction reporting is applied to the Interior
Franchise Fund to be in accordance with generally accepted accounting standards.



‘Accrual-based accounting ensures that financial activity is recorded in the proper reporting period.

                                                      11
MMS Response and Office of Inspector General Reply

In the February 29, 2000, response (Appendix 1) to the draft report from the Director of
MMS, MMS “agree[d]” with all three recommendations.    Based on the response, we consider
Recommendations    2 and 3 resolved and implemented.     MMS also provided additional
comments, which we incorporated into the report as appropriate.

For Recommendation     1, MMS, in subsequent correspondence,  said that the recommendation
would be implemented by December 31, 2001, and that the Chief, Budget and Finance
Division, was responsible for implementation.    Accordingly, the recommendation     will be
referred to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation.

Since the report’s recommendations     are considered resolved,     no further response   to the
Office of Inspector General is required (see Appendix 2).

Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.




                                               12
                                                                                   Page 1 of 13

                      United States Department                  of the Interior
                                                                     /
                                 MINERALS MANAGEMENT SERVICE
                                          Wshingron. CC 20240


                                            FEE        29 2000




Memorandum

To:                Assistant Inspector General for Audits

Through:           Sylvia V. Baca _&‘I,u&~                 aw
                   Acting Assistant Secretary, Land and Minerals Management       m-3zlal
             if+

From:              Walt Rosenbusch &LA.
                   Director, Minerals Management Service

Subject:           Office of Inspector General Draft Audit Report, “Internal Controls Over
                   the Accounting System, Financial Management Branch, MineraIs
                   Management Service”

Thank you for the opportunity to respond to the draft audit report on our accounting
s)xtem’s internal controls. We are providing to you our general comments on the audit
findings, specific ones on the recommendations, and a detailed table listing specific
findings and our actions taken or planned.

Please contact Bettine X4ontgomery at (202) 20%2976 if you have any further questions.




Attachment




                                                  13
                                                                                     APPESDIX 1
                                                                                     Page 2 of 13




   MineralsManagement Service Response to Draft Audit Report ‘internal
   Confrols Over the Accounting System, Financial Management Branch,
                      Minerals Management Service”


Audit Agency: Office of the Inspector General (OIG)

Audit Xumber: E-N-MMS-009-98

We welcome the opportunity to comment on this draft report. We generalIy concur with
the report’s findings and recommendations, and we have already taken corrective actions
to resolve many of the deficiencies noted in the report. We offer the following
comments to document our efforts to date, and aIso to explain ourplans for additional
corrective actions.


                                  General Comments

\Ve acknowledge that the 34inerals 34anagement Service (5434s) did not have accurate,
complete, aEd timely financial data in FY 1938. During 1999 and 2000, we have and are
jmplementing new accounting policies and procedures to improve the quaIjty of our
firianc;‘al information. We have taken steps to correct FY 1998 and improve FY 1999
information. Howe\.er, despite a yearlcng focus cn resolving FY 1998 accounting
discrepancies, we \vere unable to resolve them with existing resources. Accordingly, we
assembled a multi-Bureau AnnuaI Financial Report Team (AFR Team) to resoIve
remaining general ledger inconsjstencjes and to reconcile 3lr\4S cash balances with
Trca:ury. This RX the opening phase in a longer term plan to ensure that MMS financial
data reJating to all fiscal years \viIl once again be accurate and reliable. While the A_FR
Team has been successfuI in sati:fj,in g informaticn requirements for the Department’s
ConsoIidated Financial Statements, we intend to carry OUTefforts to more detailed levels.

\Ve xkno\vledge that the internal cor,troI s>xtem relating to our administrative
accounting operations was not adequate to ensure that transactions were properly
recorded, proce,-Csed, and summarized to permit the preparation of financial statements in
accordance \vi;ilhFederal accounting standards. ,Ileny of the actions taken during 19S9 to
enhance the qcality of our financial data involved improvements to internal controls.
Ho\vever, we understand that a thorough review of the &tire internal control
cn\:iror,mcnt is in order. Accordingly, we are arranging for a comprehensive review of
the sJ,stem and procedural controls relatin,0 to all XJlS administrative accounting
activities. This review will be performed by an crgar,izaticn outside of MMS to ensure
complete objectivity of the review.

in conjunction \vith the re\Tiew of the internal control sjztem, we are in the process of
revie\\ing and documentin, 0 a11financial management functions performed in h4MS.
These reviews are drawing upon the resources of the Financial Management Branch staff,
other MXS organizations, other Departmental resources, and outside consultants.



                                             14
                                                                                    APPENDIX 1
                                                                                    Page 3 4 13
                                                                                         2



Current operating procedures, document flows, and data flows will be closely analyzed
for \vays of improvin, 0 the efficiency and effectiveness of operations. Desktop guides are
being developed covering all recurring operating procedT;res. This process is currently
underway with a projected completion date of April 2000. During 1999, workload and
accountability rezpor,Libilities lvere documented (including backup responsibilities) for
each position in the Financial Mane,  -Oement Branch. Hoive\:er, this is a living document
\vhjch wj]l be updated to account for the recent addition of new staff and the planned
addition of fimre shff.


               Commenfs      on fhe Findings Presenfed       in fhe Report

Accou~ Reviews alld Reconciliaiions

We concur with the report’s general findjng &at inadeqcate reviews and reconciliations
were performed to emure that accounting transactions \\‘ere properly recorded and
reported in FY 1998. We also ackno\vledge that the 1.a!ues in the property system did not
reconcile completely \vith the general ledger information in the MMS administrative
accounting system (ABACIS). FoIIo\ving are sunman’es of MMS efforts relating to
specific a,rezs identified in the draA reFort.



Be A,FR Team devoted significant resources to resol\‘l,,,
                                                      ‘-0 outslanding gerieral ledger
issues. Some of the particukr areas addressed included:

       l   Improper journal vouchers,
       l   Errors relating to the Standard General Ledger conversion performed at the
           beginning of FY 1998,
       l   Discrepancies between budgetary and proprietary accounts,
       l   Errors resuhing from improper posting modeIs, and
       l   ‘Lr~atural general ledger balances.

$J ;2.&lS funds \vere re\?eued tYJough FY lSS9, and ccnecting general ledger entries
con;pIeted. FY 2000 general ledger transactions are currently being reviewed on a
monthly basis for any inconsistencies, including unnatural balances and differences
between the summary and subsidiary ledgers, and necezzary corrections are being made.

Cash

ne task force performed a reconciliation of cc:h bet:\wn ABXCIS and Treasury, The
reconciliation compared balances in each of 42 MMS finds. While a complex and
difficult tzsk, 1s.erecognized that it \I’as necessary to ensure the integriiy of h4SlS
financial information. As a further recognition of the importance of this reconciliation,




                                              15
                                                                                      APPESDIX 1
                                                                                      Page        of 13
                                                                                              f


1fl1S v,iII continue to \vork on cash e\‘en though the task force was successful in
reconciling cash to acceptable materia!ity levels.

Cash reconciliations are now being performed monthly cn a transaction basis. To
facilitate the reconciliation process, new procedures were established during 1999 to
better track cash receipts and OP,4C transactions with >EVS trading partners. However,
we plan to review the entire reconciliation process c&r to identify approaches, formats,
and procedures that will make the process more efficient

Year-end      Closeout

For fiscal year-end FY 1999, particular emphasis was placed on ensuring that
transactions were recorded in the correct fiscal year. Improved year-end procedures were
developed and subjected to discu-,Gon and comment by all Financial Management
Branch staff. Accounting technicians also receil,ed training to augment the written
closeout instructions.

The planned review and documentation of financial rnzagement operating procedures
\1:ilI specifically address year-end closeout activities. The review will focus on ensuring
that transactions are recorded in the proper fiscal year, qropriation,   and account code,

Converriop

The AFR Team analyzed the adjustments made abler FY 1998 to resolve discrepancies
between the &sing general ledger tz!znces in FY 1997 and the beginning balances in
FY 1998. Adjustments ha\:e been :x6-de to \xlidste and ccrrect closing FY lS97 and.
beginning FY 1998 balances.

Capitalized    Equipment

We recently hired a new staff member u.ho has been assigned responsibility for
performing monthly reconciliations u,ith the esisting prcperty system. Since MXS has
increased the capitalization threshold to 515,000 beginning in FY 19S9, the number of
items to be reconciled has decreased by more than 65%. Longer term, we are planning to
replace the current property management system \I.Ith cne that will be integrated with
mACIS.

Inadequate Procedures

JVl/‘e
    generally concur that 3fi;21Sdid r,ot have adequste procedures in place to ensure that
accounting transactions were recorded and reported prcperly during FY 1998. FoIIowing
xe summaries of our efforts relatic, 0 :o specific areas identified in the draft report.




                                              16
Fr_der-a] or Public Trancactions

At the beginning of FY 1999 R’eprovided instructions to accounting technicians on how
to review documents to ensure the Gosenunent’ncn-Go\.e~~~ent indicator is correct on
)J3ACIS input screens. In addition, as part of the FY 1999 year-end closeout, we closely
scrutinized accrual documents prepared by program staff for appropriate
Government/non-Gove~~ent      designations. (Accrual documents were a major source of
errors in FY 3998.)



‘The MS Interior Franchise Fund business Iine operations grew quickIy during
FY 1998. During that time, the Interior Franchise Fund was still developing as an entity
v,.jth numerous accounting policy issues needing to be resolved. Some of these issues
jnclu&d the le\:el of cost tracking detail required for the MMS lines of business, and the
allocation of funds to operating and improvement reserves.

Recognizing that our existing accounting apprcaches v.‘ereinadequate, in November
1998, we contracted with the accounting firm KPMG to review and make
recommendations for impro\%g the accounting practices relating to the Interior
Franchise Fund lines of business cperated by 1414s. We implemented, or are working on
their recommendations for accounting procedure improvements, cost accounting
methods, ccst accounting syxtems, and management report formats.

Eased in part upon rhe implementation of the K_FWGrecommendations, the MMS
Interior Franchise Fund ccst accountin, 0 c_>stem, 1~bile operated within ABXCIS, is able
to track Interior Franchise Fund transactions separately from other MMS activities. The
system records transactions, including o\:erhead, in sufficient detail for 3434s to
determine whether the pricing structures for MM business lines are adequate to recover
full costs.

‘#e worked clcscly lyi:h the Interior Franchise Fund staff during FY 1999 to address
appropriate methods for accruir,g revenues x-,d exr
                                                  ‘-enses. Revenues and expenses are
now accrued on a monthly basis for all MA4S Xnterior Franchise Fund business lines.
This jnfonmtjcn is Frovided to the Interior Franchise Fund each month to be
incorporated into monthly financial statements.

To impro1.e eve,=‘cht
                  -lb    of XJ\1S Interior Franchise Fund activities, we established a new
position in early FY IS’99 whcse duties include reconcilin, 0 ‘MM!3
                                                               4      records with Interior
Franc&e Fund records. These reccricilistjons are now performed monthly. One of the
steps remaining for us is the lvritten documentation of the policies, procedures and staff
rcsporxibilities relating to ?\LVS fhnctise operaticns. This effort is underway.

\ve take exception to the statement “the Service’s appropriation used its revolving fund
to supplen;ent the ccst of the Interior Franchise Fund.” First, hD1S does not have a
revolving fund. Second, we did not use appropriated funds to supplement the ccst of the



                                              17
                                                                                           APYLNIJLA     L

                                                                                           Page 6 of 13
                                                                                                     5


    Interior Franchjse Fund. At lvorst, we shared o\.trhead costs for Interior Franchjse Fund
    activities with o\xrhead costs for similar lines of business not included in the Interior
    Franchise Fund. To a\.oid the appearance that nlMS supplemented the cost of the
    Interior Franchise Fund lines of business from other funding, we have segregated
    Franchise Fund related activities from other lines of business not included in the Interior
    Franchise Fund.


              Commenfs      on fhe Recommendafions           Presented    in the Report


    We concur with all of the recommended internal control procedures presented in the draft
    report and, as detailed in our comments on the report’s findings, we have taken numerous
    actions to implement these procedures. Follo\~G-rgis a summary of our corrective actjons
    (completed or planned) relatin, 0 to each recommendation. The Chief, Budget and Finance
    Division, is the responsible official for implementing the recommendatjons. We plan to
    submit targets dates by the fail of 2000 after re\:jewing KPMG’s report.

    ~?pcommcndalioD],      Implement an Adequate Internal Control Structure           in
                           MMS that:

                              Assigns responsibilities to specific indi\-iduals and holds
                              officials accountable for noncompliance with internal
                              controls
                              Establishes year-end closeout procedures for general ledger
                              and franchise fund activities
                              Ensures that FederaI v. Public transactions are properly
                              identified

    ,LICR_EE.An assigned responsjbiljtjes listing 13’2s de\.eloped and discussed l\+h all staff
    during 1999. The purpose of this list R’as to identify and ass!‘gnptimary responsibilities
    in the Fixxncial Management Branch to specific individuals and to identify and assign
    backups for these respcnsibilities. This listing also supports the identification of    .
    individuals accountable for internal controls. This listing is not a static document. It ;vill
    be updated for the additjon of new staff and \v.jllbe revised as the Financial Management
    Branch’s functions and workload are revievved.

    Improved year-end procedures were prepared for the FY 199’9closeout. All s?aff
    members lucre asked to comment on the re\:ised procedures and each step was discussed
    jn a series of meetings called to prepare for year-end.

    instructions lvere Frovidcd to staff early in FY 1999 cn the correct classification of
    govemrnent 13. non-goverriifnt transactions. Since that time, new procedures have been
    de\te]oped for verifyjng government vs. non-go\:ernment data recorded in ABXCIS.
i




                                                   18
                                                                                      APPENDIX 1
                                                                                      Page 7 of 13
                                                                                             6


 \+‘rjttcn dczktop procedures are bcI::g Zc\ elcpcd for ~11staff to assure consistency of
 actjons and to support more readily ILS hbi:ity of other in3i\jdcals to perform backup
 functions.

 The accounting firm of KP?rlG \j:iII perform a comprehensive review of our internal
 controls, and make recommendations cn impro\:ements to existing controls and the
 a33jtion of new controls It-here apprcprjste. Thjs revjew \vjll strengthen our assjgned
 responsibilities listing and the accountability of specific individuals for maintaining
 compliance with these controls.


 ]Pecommendation     2, Del.elop a cost accouating sgstem that accumulates separately
                        all rewnues and expenses associated with tbe Interior
                        Franchise Fund.

.~GR_EE. In November lS98, we contracted vvjth KlXG to review our operations and to
make recommendations to imFro~‘e cur accounting prsc?jces for the Intetior Franchise
Fund lines of business operated by ILIfS. K_F’JlGpro\.iiled recommendations to improve
our ccst accounting procedures. As a result of these recommendations, spreadsheets have
been set up to track tSe revenues and expenses of the Ic\lS franchising activities by
busjmss line. This information is Fro!‘jdtd io the Intcrjor Franchjse Fund each month to
be incorporated into its monthly financial statements.

We have implemented a ccst accountin, 0 sypstem, operated lvithjn ,UACIS, that tracks
,11,1JSLnterior Franchise Fund acti\:ities separately frc.n other MMS activities. The
syasternrecords transactions in _cuf’cjcrit 3etajl to allow an assessment of whether the
$cjng structures for MIS business lines zre sdequate lo recover full cost of operations.


Recommendation      3, .Ipply the accrual method of transaction reporting to MMS
                       Iolerior Franchise Fund activities in accordance with generally
                       accepted   accounting   standards.

AGREE. Agin, in part as a result of the K.PMG review of our operations and accounting
practices for +e
              iii ;“\IL;S‘Interjor Franchjse Fund actiljties, xve have implemented new
Frocedures for tracking Interior Fr anc2jse Fund re!ated transactjons, Spreadsheets have
been developed to track accruals and o\:erhead fees eamed for each business line. This
information is now reported to the Interior Franchjse Fund on a monthly basis, We will
document these procedures 2s p-t of the planned documentation of all MM financial
rnanzgement functions.


                                      Conclusions

In summary, w;e concur \vith the majority of the OIG’s findings.  It is also important to
note that although we did not receive this report on FY 1998 internal control issues until



                                                19
&:cber 1999, \ve had already reccgnized mariy of these F:oElems and had taken steps to
222:ess them, e.g., brir:ging in K..F~lGto review cur Litericr Framhise Fund opercticns
a;id make recornrne:ldations on impro\,ements. Some jmFrovement steps are ongoing,
e g., the \vrittcn documentaticn cf all procedures. Other izpro\‘ement steps will be
initiated in the next few months, e.g., ha\:ing K_IWGperfcrm a ccmprehensive review of
our accounting operations.

A Gore details-d Mng of the OIG’s findings folloa~s. This list also identifies our
concurrence or non-concurrence with each of thcce findings, and comments on the steps
lie have tsken or plan to take to address the findings.
                                                                                     LIA   A   _I.“....   _



                                                                                     Page 9 of 13




                                     Detailed Listing of OIG Comments and

                     Actions Taken or Planned by the Minerals Management Service




“the financial data were not accuxte,        Page 1,        Concur   Contracted for accounting
were inconlplete,  and v,xre not timely.”    Paragraph 1              support from National Business
                                                                      Center (XX). Assembled multi-
                                                                     bureau Annual Financial Report
                                                                      Team (AFR Team) to assist in
                                                                      resolving outstanding issues..
“cor;trol dCfiCiCnci?S   CCCZITtd  becscse   Page 3,        ConcLu    Ii‘hile a number of actions have
Senice personnel did EOI ~OIIOW              paragraph 2             been taken to improve internal
established internal controls, such as       - Results of             controls, we also plan to utilize
pel-foming     account reconciliations and   Audit                    the senices of KP5IG to
providing man-,Qoement oversight of the.                              conduct a comprehensi\re re\.iew
financial management accounting                                       of our controls and our
processes, and the Service did not                                    operalicns.
establish adequate internal controls t0
ensure that transactions were properly
cja:sified during the convercicn to the
nely standard general ledger.”




                                                    21
                                                                                                                                tiZZL;rrusn        L


                                                                                                                                Page 10 of 13
                                                                                                                                           9


                                                                                                 Coacurl                                      -.
                                                                                                                                                       r


~.                                                    -.   .._         :
 -_                                   .‘:            i -    ..;_-7.’                 \yhere      Son-
                                                                           .’--
             ._’                ;;,
                   .::.
~.   .i...
                          _::,.:_:;
                                      3..

                                            O]G   C&&ht>_                            Found       conc;lr   -   ::T
                                                                                                                  __;Act@n Taji~niPIii’dtied~t-
“djd not have sufficient internal CoMd                                            Pege 3,        Concur        In November 1998, we
procedures to ensure proper accounting                                            paragraph 2    \vith one     contracted with K_PXlGto review
of the interior Franchise Fund.. .funds in                                        - Results of   exceptior     our operations and to make
the Interior Franchise Fund lvere                                                 Audit                        recommendations to improve our
commingled with Service funds.”                                                                                accounting practices for the
                                                                                                               Interior Franchise Fur,d lines of
                                                                                                               business operated by SLIMS. The
                                                                                                               MMS did not commingle
                                                                                                               appropriated tinds with Interior
                                                                                                               Franchise Fund funded activities
                                                                                                               At worst; overhead costs for
                                                                                                               Interior Franchise Fund fUnded
                                                                                                               activities were commingled with
                                                                                                               overhead costs for simi!ar lines
                                                                                                               of business not fimded by the
                                                                                                               Interior Franchise Fund. To
                                                                                                               more clearly delineate the
                                                                                                               separate funding of these
                                                                                                               overhead costs, MMS has
                                                                                                               zesregated its FrancEse Fund
                                                                                                               Ielated activities from these
                                                                                                               other lines of business.
“djd not review or reconcile financial                                            3zse 3,        ZoncJr        Sew procedures have been put
data to ensure that accounting                                                    paragraph 3                  into place to reconcile cash and
transactions \J’ere recorded and reported                                         - Acccunt                    are being put into place to
accurately during fiscal year I S98.”                                             Reviews srid                 reconcile other financial data on
                                                                                  ReconcilIa-                  a regu!ar basis.
                                                                                  tions
“\.a]ues in lhe property s)rstem did r,ot                                         Page 3,        :oncur         We have hired a new staff
support the general ledger ba?ance.”                                              paragraph 3                   rriember whose respccsibilities
                                                                                  -Account                      include performing a monthly
                                                                                  Revielvs and                  reconciliation of the Troperty
                                                                                  Reconcilia-                   system and AE3ACIS.
                                                                                  tions
“the amount for each accounts palzble                                             Page 3,        Zoncur         New procedures are being
transaction S,YZS
                riot recorded in the                                              paragraph 4                   developed to require monthly
subsidiary ledger.”                                                               - General                     reviews and reconciliations of
                                                                                  ledger                        general and subsidiq ledgers.
                                                                                                                Responsibility for these reviews
                                                                                                                and reconciliations has been
                                                                                                                assigned to the Chief of
                                                                                                                Accounting Operations.




                                                                                        22
                                                                                            HYrCAyUinI
                                                                                            Page   11 of 13
                                                                                                          10


                                                       i    -9.


                                                     M’here
                                                     F6und’
                                                  Page 4,
     reconciliations for any of its 13 funds      paragraph 3                 late in FY 1998 and trained
     during fiscal year 1998.”                    - Cash                      during FY 1999 whose primary
                                                                              responsibility is the monthly
                                                                              reconciliation of cash. Written
                                                                              procedures are being developed
                                                                              to ensure that all steps necessary
                                                                              to reconcile cash fully are
                                                                              completed each month,
     “fiscal year 1998 trancxtions \vere         Page 5,          Concur     Year-end procedures were
     included in the fiscal year 1999            paragxph 3                  improved for FY 1999. All stsff
     subsidiary account balances in the          -Year-end                   were asked to comment on the
     AEMCIS accounting system.. .The             Closeout                    revised procedures and each step
     Sen.jce prepared adequate yearend                                       \vas discussed in a series of
     procedures; however, the accounting st2ff                               meetings called to prepare for
     did not follow these procedures.”                                       the year-end closeout.
     “One hundred twenty five invoices Lvere     Page 6,          concur     Both a new scanning system and
     not date stamped”                                                       new procedures have been set zp
                                                                             to ensure that information is
                                                                             properly recorded.
  ,*.Fjfieenaccount numbers in the ABXCIS                         Concur     New desk proc.edures are being
  accounting s),stem did not zgree with the                                  developed for all positions to
 ,account numbers on the purchase order”                                     ensure that all primary staff and
                                                                             all backup staff are aware of the
                                                                           1 responsibilities oftheirjobs.
     ,Sine p&d in\cices \J’ere not approv.rd.”   Page 6                     ?Tew desk procedures are being
                                                 bullet ;                    developed for all positions to

                                                                            all backup staff are aware of the
                                                                            responsibilities of their jobs
.‘
   the conversion did not properly include       Page 6,          Ioncur    This v;as one of the issues
6 II of the general ledger accocnt balances.     Parzgr2ph 6,               addressed by the NBC staff and
C:cnsequelitly, the Jlinerals Management         Convexion                  the AFR Team. They have
C;ervice created a balancing
L
                                                                            successfully reconciled the
2 ccount.. Because the Service did not                                      balancing account and corrected
r econde the S69 million to identify the                                    ending and opening balances.
adjustments needed in the ABXCIS
accounting system records, we found, in
‘-Liugcst 1998, that the fiscal year 1997
ending balances audited were not equal to
11 $e fiscal year IS98 opening balances.”




                                                       23
                                                                                                -.     ..--_
          -:.   :
  .   .
                                                               V’b.cre                          :
                    ..:.:.:   -(jjc   c&$.Jent-:   i -..    .’ F,ju&;               -;-_’.4<ijog 'i'ak&Yladned_.-
“The Service did not have sufficient                       Page 6,                  \Ve have hired a new staff
Internal control procedures to ensure that                 paragraph 7              member whose responsibilities
the general ledger control balance for                     & page 7,                include performing a monthly
Property, Plant and Equipment was                          paragraph 1              reconciliation of the property
accurately stated and supported by                         - Capitalized            system and ABACIS.
detailed subsidiary information.. .the                     Equipment
Service did not periodically reconcile the
propem    management records to the
Service’s general ledges”
“did not have adequate procedures to                       Page 7,         Ccncur   While a number of actions have
ensure that accounting transactions were                   paragraph 2              been taken to improve internal
recorded and reported properly during                      - Inadequate             controls, we also plan to utilize
fiscal year 1998”                                          Procedures               the services of K.PMG to
                                                                                    -onduct a comprehensive review
                                                                                    sf our controls and our
                                                                                    sperations.
“djd not have adequate internal controls                   Page 7,         CCIXU    bxtructions \vere provided to
to ensure  that transactions \?‘ere properly               paragraph 3              staff early in FY 1999 on how to
classified as Federal (go\,emment) or                      - Federal or             :Iassjfy government vs. non-
Public (nongovernrncnt) in the general                     Publk                    ;o\‘ernment trannxtions. Sew
ledger accounts.”                                          Transactions             xocedures have been developed
                                                                                     0 verify data in Ihe s>xtem.




                                                                 24
                                                                                                                           ArrL.lulA       *

. ?   .                                                                                                                    Psge        13 of   13
                                                                                                                                               12

                .
                                                                                                  Concur/

                                                                                                            I
                                                                                                                           *_
          :             1: . . ‘_
                                __     :          . .   r,.    . ;,                    Where      Yen-
                                            “Oi~$~otimedt         y;                                                Ailion Tai&b,Plarjn~~
                                                                                                                                   ._
                .                                  .;!;;.c>_
                    :            :__ _::.                              -’   ‘~“‘_
          .:.            .’
                                                                                        Found     Concur        -
      “did not have sufficient internal coritrol                                    Pzge 7,       Concur    In November 1568, we
      procedum to ensure the proper                                                 paragraph 4             contracted with KJWG to review
      accounting of the Department of the                                           - Interior              our operations and to make
      Interior’s Franchise Fund...did not (1)                                       Franchise               recommendations to improve Our
      develop a cost accounting system to                                           Fund                    accounting practices for the
      determine whether the pricing structure                                                               Interior Franchise Fund lines of
      was adequate to recover full costs; (2)                                                               business cperated by MMS.
      implement accrual accounting procedure:                                                               Spreadsheets have been
      to record expenses incurred or revenues                                                               developed to track accruals and
      received in accordance with accounting                                                                 overhead fees earned This
      standards; and (3) provide oversight over                                                              nformation is submitted
      the Fund by establishing written                                                                       nonthly to the Interior Franchise
      accounting procedures or reviewing                                                                     Fund. Revenues and expenses of
      accounting data.”                                                                                      he M34S franchising activities
                                                                                                             ze tracked in another
                                                                                                             rpreadsheet for each business
                                                                                                             ‘ine and provided to the Inferior
                                                                                                             Franchise Fund to be
                                                                                                             ;ncorporated into monthly
                                                                                                             fmancial statements. Prcce3ure.s
                                                                                                             ?;ave been develcped to improve
                                                                                                             .he processing of-documents.
           “the Service’s appropriation used its                                    ‘ase 7,       Son-       11) the Service does not have a
           re\:o]\:ing fund to supplement the ccst of                               jaragraph 4   Concur     revolving find, (2) the Service
           the Interior Franchise Fund.”                                              Interior               lid not use apprcpriated funds to
                                                                                     ‘ranch:‘se               .upplement the cost of the
                                                                                     ‘und                     nterior Franchise Fund, (3) at
                                                                                                              worst, the Service shared its
                                                                                                              I.xe&ca&isforthelnten’or
                                                                                                              ?ranchise Fund activities with
                                                                                                              overhead costs for similar lines
                                                                                                              If business not included in the
                                                                                                              nterior Franchise Fund. TO
                                                                                                              :nsure that imprcrer
                                                                                                              xrpplementing of costs cannot
                                                                                                              lappen in the future, the Service
                                                                                                              ;as segregated its Franchise
                                                                                                              Fund related activities from
                                                                                                              Jther lines of business not
                                                                                                              included in the Interior Franchise
                                                                                                              Fund.




                                                                                          25
                                                                   APPEh-DIX 2




        STATUS OF AUDIT REPORT RECOMiMENDATIONS

Finding/Recommendation
        Reference               Status                 Action Required

           1             Resolved; not        No further response to the Office
                         implemented.         of Inspector General is required.
                                              The recommendation will be
                                              referred to the Assistant Secretary
                                              for Policy, Management and
                                              Budget for tracking of the
                                              implementation.


        2 and 3          Implemented.         No further action is required.




                                         26
                   ILLEGAL OR WASTEFUL ACTIVITIES
                        SHOULD BE REPORTED TO
                  THE OFFICE OF INSPECTOR GENERAL


                     Internet Complaint        Form Address


                    http://www.oig.doi.gov/hotline_form.html

                                                               .-

                   Within the Continental        United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800-424-508 1 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 2082420



                  Outside the Continental        United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-922 1
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pa@    Region

U.S. Department of the Interior                        (671) 647-6060
Office of Inspector General
Guam Field Office
4 15 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
-.__. .




          U.S. Department of the Interior
          Office of Inspector General
          1849 C Street, NW
          Mail Stop 534 1- MIB
          Washington, D.C. 20240-000 1

          Toll Free Number
                l-800-424-508 1

          Commercial Numbers
              (202) 208-5300
              TDD (202) 208-2420
